      Department of Homeland Security





             Efforts to Expedite Disaster 

                Recovery in Louisiana 





OIG-12-30                                     January 2012

                                                           Office of Inspector General

                                                           u.s. Department of Homeland Security
                                                           Washington, DC 20528




                                                          Homeland
                                                          Security
MEMORANDUM FOR:                Deborah Ingram
                               Assistant Administrator, Recovery Directorate
                               Federal Emergency Management Agency

FROM:                          D. Michael Beard /
                                                      I   t/~P-  /"
                               Acting AssistanyJ spector General
                               Emergency Maf1a.gement Oversight

SUBJECT:                       Efforts to Expedite Disaster Recovery in Louisiana

Attached for your information is our final letter report, Efforts to Expedite Disaster
Recovery in Louisiana. We incorporated the formal comments from the Federal
Emergency Management Agency (FEMA) into the report.

The report contains two recommendations aimed at improving FEMA's public assistance
program. Your office concurred with both recommendations. Within 90 days of the date
of this memorandum, please provide our office with a written response that includes your
(1) agreement, (2) corrective action plan, and (3) target completion date for each
recommendation. Also, please include responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendation.
Until your response is received and evaluated, the recommendations will be considered
open and unresolved.

Consistent with our responsibility under the Inspector General Act, as amended, we are
providing copies of our report to appropriate congressional committees with oversight
and appropriation responsibility over the Department of Homeland Security. The report
will be posted on our website.

Should you have any questions, please call me, or your staff may contact
John Kelly, Acting Deputy Assistant Inspector General, Office of Emergency
Management Oversight at (202) 254-4163.
cc:   Jason McNamara, Chief of Staff, FEMA
      David Kaufman, Director, Office of Policy and Program Analysis, FEMA
      William Roche, Director, Public Assistance Division, FEMA
      Audit Liaison, DHS
      Audit Liaison, FEMA

Attachment




                                       2

Background
The Federal Emergency Management Agency’s (FEMA) Public Assistance (PA)
program provides funding to repair, replace, or restore disaster-damaged, publicly owned
facilities and the facilities of certain private nonprofit organizations. The program also
funds emergency-related activities such as debris removal and emergency protective
measures. This assistance is provided to state and local governments, federally
recognized tribes, and certain private nonprofit organizations.

The PA process starts with a Preliminary Damage Assessment, which is a joint assessment
by the state and FEMA to evaluate the magnitude and impact of an event’s damage.
FEMA uses the results of the assessment to determine if the situation is beyond the
combined capabilities of state and local resources. If there is a need for federal
assistance, the President may declare a disaster. Once a disaster declaration is made,
FEMA provides assistance covering at least 75% of the eligible costs. The President has
the ability to increase the percentage of federal assistance based on the severity of the
disaster.

As of July 12, 2011, FEMA had obligated $10.2 billion in PA grants to support
Louisiana’s recovery from Hurricane Katrina. The hurricane’s landfall and the
subsequent flooding overwhelmed Louisiana’s capacity to respond to and recover from
the disaster. The President officially declared a disaster, which allowed FEMA to
provide financial assistance for disaster recovery. For Hurricane Katrina, the federal
share of assistance to Louisiana is 100%.

FEMA is required by Code of Federal Regulations Title 44, Section 206.204(c)(1), to
establish PA project deadlines that start on the date of a presidentially declared disaster
and should conclude no later than 48 months afterward. Table 1 shows the regulatory
deadlines and extensions by project work type.

 Table 1. Public Assistance Deadlines
   PA Categories and Projects   Initial PA Project   Grantee Deadline for   Total Months
   by Work Type                 Deadlines            PA Project Extension   To Complete
                                                                            PA Projects
   A. Debris Clearance               6 months              6 months              12 months
   B. Emergency Work                6 months               6 months              12 months
   C–G. Permanent Work              18 months             30 months              48 months




                                                3

Results of Review

Public Assistance Project Closeout in Louisiana

Only 6.3% of Katrina-related PA projects in Louisiana have been closed in the 72 months
since Hurricane Katrina made landfall. Projects, especially those in categories A (Debris
Clearance) and B (Emergency Work), are years past the closeout deadlines.

The primary reason given by all state, local, and FEMA officials interviewed was the
catastrophic nature of Hurricane Katrina. As mentioned in our 2006 report,1 the
magnitude of the storm and its effects completely overwhelmed state and local
governments, as well as FEMA’s disaster response system and resources. The hardest-hit
communities lost all infrastructure: electricity; water and sewer lines; roads and bridges;
communication systems including telephone lines, cell phone towers, radio capabilities,
and satellite antennas; and, in some instances, basic government operations, including
law enforcement. Although FEMA has worked with Louisiana to expedite the recovery
effort, state and subgrantee officials said that it may take between 10 and 20 years to
close all PA projects in Louisiana. FEMA regional officials made similar statements.
Table 2 shows the status of Katrina PA projects in Louisiana, Mississippi, and Alabama.

Table 2. Public Assistance Projects in Three States

                                                                Closed     Percentage
     Public Assistance Project Categories      Total Projects
                                                                Projects     Closed

                                            Louisiana-DR 1603
    A. Debris Clearance                               615          34          5.5
    B. Emergency Work                               5,118          413         8.1
    C–G. Permanent Work                            12,963          731         5.6
    Totals                                         18,696         1,178        6.3


                                        Mississippi-DR 1604
    A. Debris Clearance                           1,168            936        80.1
    B. Emergency Work                               2,099         1,292       61.5
    C–G. Permanent Work                             7,806         6,261       80.2
    Totals                                         11,073         8,489       76.6


                                            Alabama-DR 1605
    A. Debris Clearance                             260            260        100
    B. Emergency Work                                296           295        99.7
    C–G. Permanent Work                             1,105         1,097       99.3
    Totals                                          1,661         1,652       99.5


1
 A Performance Review of FEMA’s Disaster Management Activities in Response to Hurricane Katrina
(OIG-06-32), March 31, 2006.

                                                      4
Causes of Delays in Public Assistance Project Closeouts

Several factors have contributed to the slow progress of completing and closing out PA
projects. FEMA, Louisiana, and subgrantees provided the following explanations as to
why the efforts to close PA projects have been delayed.

100% Financing of PA Projects

Louisiana officials and our field auditors said that one of the key contributors to the slow
progress in closing out projects was the federal government’s decision to fund 100% of
eligible Hurricane Katrina costs. Because the state does not pay the project costs, it has
no incentive to seek cost-effective replacement or repair solutions, close completed
projects, or begin reducing the disaster workforce as work is completed. The 100%
financing also led to applicants continuing to identify new damages 5½ years after the
event, and asking FEMA to cover eligible costs.

Project Procurement Process

Louisiana and subgrantee officials expressed concerns that FEMA’s procurement process
is complicated and rigid, especially burdensome after a catastrophic disaster. Some
officials said that early in the PA process, repair projects were delayed because FEMA
required contracts to be competitively bid. Therefore, the project was delayed until
additional bids were received.

PA Program Decisions

Some subgrantees said FEMA decisions for applicant eligibility and replacement versus
repair determinations were inconsistent early in the PA project worksheet (PW)
formulation process. Applicants must document proof of ownership to be eligible for
assistance. Following Katrina’s landfall, proof of ownership documents were lost or not
easily located. Subgrantees said FEMA had inconsistent rules as to what documents
would serve as proof of ownership.

Subgrantees also said FEMA made inconsistent replacement versus repair
determinations. The State of Louisiana Legislative Auditor said FEMA’s PA process
encouraged “false starts” in the development of a PW. A PW might start as a repair, but
over time it would be converted into a replacement. For example, one subgrantee wrote a
PW to replace a wall of windows that had 50 windowpanes, 20 of which were damaged.
FEMA said that it would replace only the 20 damaged panes because the facility did not
suffer 50% worth of damage. FEMA later reversed its decision and replaced the entire
wall of windows with a single-pane window.

Some of these inconsistent decisions were made by transitional FEMA staff. Subgrantees
said that FEMA now has more continuity of staff in Louisiana and PA determinations are
more consistent. In addition, to improve repair versus replacement determinations,



                                             5

FEMA officials said they have improved PA standard operating procedures and expect
changes to the PA cost-estimating format in the near future.

State Resources for Project Closeout

Louisiana and subgrantee officials said that some PA projects are eligible for closeout.
However, state-level efforts to close these projects are limited because state officials have
assigned staff resources to other projects that are considered more important. In contrast,
our field auditors and FEMA officials said that $196 million has been given to the State
of Louisiana to manage Katrina PA projects.

Conclusion

In the 72 months since Hurricane Katrina made landfall, only 6.3% of all Katrina-related
public assistance projects in Louisiana have been closed. FEMA, state officials, and
subgrantees said the catastrophic damage caused by the hurricane is the major cause of
delay in completing and closing PA projects. The same officials also said several factors
delayed efforts to close PA projects: the federal government commitment to reimburse
Louisiana 100% percent of all PA project costs, FEMA’s complicated project procurement
process, PA decision inconsistencies, and Louisiana’s staff resources. FEMA is working
to address the PA program decision inconsistencies by assessing PA operating procedures,
developing disaster staff continuity, and improving the PA cost-estimating format.

FEMA needs to develop policies, procedures, and timelines to specifically address the PA
project management process for projects that are 100% federally funded, coordinate with
the State of Louisiana and local governments to evaluate the status of PA projects, and
develop a process to expedite the closure of completed projects.

Recommendations
We recommend that the Assistant Administrator, Recovery Directorate:

       Recommendation #1: Develop and implement specific policies, procedures, and
       timelines to ensure that projects with 100% federal funding are closed timely.

       Recommendation #2: Evaluate the status of all Public Assistance projects in
       Louisiana associated with Hurricane Katrina. Develop, in conjunction with the
       State of Louisiana, a process to close completed projects and expedite the
       completion of open projects.




                                             6

Management Comments and OIG Analysis
We received written comments on the draft report from FEMA’s Office of Policy and
Program Analysis. FEMA concurred with both recommendations. We included a copy
of the comments in appendix B.

We analyzed FEMA’s comments and agree with actions that FEMA is taking. With
regard to Recommendation 1, the development of an updated draft Public Assistance
Program Management and Grant Closeout Standard Operating Procedure will move
FEMA toward better oversight of federal disaster fund management and will provide
grants with clear guidance to ensure that federal funds are spent timely and within the
scope of work required. We will determine the status of this recommendation once we
receive the detailed corrective action plan in FEMA’s 90-day letter.

With regard to Recommendation 2, FEMA, in conjunction with the State of Louisiana,
developed a plan to expedite the closure of Public Assistance projects related to
hurricanes Katrina, Rita, Ike, and Gustav; however, FEMA must remain diligent in its
efforts to ensure that the state and its subgrantees are educated on the process and
regulations associated with federal disaster funding. We will determine the status of this
recommendation once we receive the detailed corrective action plan in FEMA’s 90-day
letter.




                                            7

Appendix A
Purpose, Scope, and Methodology
The objective of this inspection was to establish the current status of all FEMA PA
projects in Louisiana associated with Hurricane Katrina and to determine why the
projects are still open. Our analysis focused specifically on Hurricane Katrina project
closeout in Louisiana because of the large number of projects and continued congressional
and public interest in Hurricane Katrina recovery activities.

We interviewed officials from FEMA’s Region VI Public Assistance Division, the
Louisiana State Governor’s Office of Homeland Security and Emergency Preparedness,
the State of Louisiana Legislative Auditor, and subgrantees in New Orleans. We
performed fieldwork in Washington, DC, and Baton Rouge and New Orleans, Louisiana.

Our analysis is based on a review of applicable documentation and interviews. We
conducted this inspection between January and May 2011, in accordance with Quality
Standards for Inspections, President’s Council on Integrity and Efficiency, January 2005.
The standards require that we plan and perform the inspection to obtain relevant evidence
to provide a reasonable basis for our findings and present conclusions based on our
inspection objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our inspection objectives.




                                            8

Appendix B
Managements Comments to the Draft Letter Report


                                                                                       l. '. I",p'''"''.' "I lIo",d.~~ '«u.j"
                                                                                       '''II ( ""...1. ,II
                                                                                      1I",hl     ,"'. IX '.1':




                                                       DEC I 9 1011


         MEMORA~DU1'."       FOR:               Chark'S K. Edwards
                                                Acting Inspcctor Gencral
                                                Ollice oflhe [nsi'CC1or General

         FRON!:                              ,:,- D:lI'idJ. Kauli-nan '1(c;,:::
                                                Director
                                                Officc of Policy ~lJ1d Program Analysis

         SUBJECT:                               I'E1'.'IA Response to Oflice of InspL'dor General (OIG)
                                                Draft Report. /:.jfims 10 E.'1}edil(' Disaster RecQ\'('ry in
                                                 Louisiana


        Thank you for the opportunity to comment on your dr.. n report. Eifo/"ls ro Elpcdi/e DiSlls/a
        HecOI'ery ill Louisialla (l' rojL"<:t il I O-OI3- EMO-FEMA). 'nle finding,; in the repon will be used
        to strL'lgthcn the efti..etiveness and eflieieney of how we execute and measure our prognuns. We
        recogni:!e the need to continue to improve our prOCL'Sses. including addressing the
        recornrn.:ndations rais.::d in this rq)()rt. Our rcsponsL'S to your two rt.'<:Ollllllcndations arc as
        follows:

        o rG RCCOlnnl cllti:llio n #1: De\"dop :Irld impl<:mc1l1 spttifie poli.::k'S. proc(.'dufes. and tnnelincs
        to ensurc that projects II'lih 100"-" (L"tieral funding arc closed tllllely .

         •-EMA Rcsponse: FEMA coneurs with this recommendation.

        FEMA has completed Ihe draft of an updated Standard Operatmg Procedure (SOP). Public
        Assistallce Program Managemenl and Grant Closeout (SOP 95711.14). This updated SOP
        describes the process FE\>1A staff will follow to efficiently 3nd elTectillely close out disasters.
        The purpose of the SOP is 10: (I) define and standardize the aetiviti ..'S associated with the
        closeout phase; (2) promote consistency in delivering and monitoring the Public Assistance (P A)
        Program; and (3) create a common understanding o(the e:tpectations and requirements for the
        asststanc.:: provided. The document outlines the roles and rcsponsibilities. objectiVes. milestones .




                                                                                      .... ".rCID».~.. '




                                                           9

Appendix B
Managements Comments to the Draft Letter Report


                                                                                                                      2


         n.:quirclllcm$, and pcrfornlancc 1l1casurt'1i associat<.'d with the Program Manugcmcnl and Grant
         close out pluiscs of the PA process. In some insl:mccs. unique or S~'{;i31 circumstances may
         1\.'tJuirc deviations from the process described in this SOP. The draft includes input from FEMA
         Regions and stakeholders :md is currently in the concurn.:ncc process: it is schcdl.lkd for rcic;)sc
         in FY 2012. After oompletion of the concurr('ncc process. the final SOP will be fOfwardlxilo the
         QIG.

         Additionally. a training course is in dCI'.::!oprncnllhal will address the Pf\ Program procCl)S, roles and
         responsibilities as rc1attxl to close out acti\'itic~. The training course is tent ativciy scheduled for
         implementation in I'Y 2012.

         FEMA r..-quests thallhis Tl'CQlllll1Cfldation be resolved and open pending implemt'l1tation of the
         stat ...-d eorr...'Ctivc action.

         OIG Reco mm endation #2: Evaluate the status of all Public Assistance projt'Cts in Louisiana associat ...-d
         w ith Hurricane Katrina. Develop. in eonjum;tion with the State of Louisiana. a process to close
         completed projects and eX[l<."1lite the cornp!ction o f open projects.

         FEi\ IA Resp on se : FE MA concurs wi th this recommendation.

         FEMA has devcloped a procedure thut tracks the progress o f r...'Covery and the movement toward
         proJ;l"arnrnatic clost'Out of Hurricanes Katrina. Rita. Gllstav and Ike projects. The procedure is
         docurnL'I1ted in a wct:kly Louisiana Recovery Status Rt""[lQ" that surnrnarizt-s the current status of
         metries such as projt'Ct worksheets. funding. appeals. arbitration as well as financi al obligation
         projl'Ctions and progrcss towards closeout. l' roJ;l"ess towards closL'Out is documented through thc
         completion of exit briefings. milestones of construction completions. inspections. recu\"CT)' of
         excess funds. financial recunciliations. and projcct, applicant and disaster closeouts.

         Once all initiall'rojec\ Worksheets (I'W) for a speeific Applicant afC created. FEMA initiatL"S an
         e.li t briefing. This IIlL"i.o1ing allows all pank-s to agree Ihat C\'L'fY identifk-d proj ...'Ct has been
         captun.-d on a I'\\'. To this cnd. the Louisiana Recovt'fy Ollicr.: (lRO) is aggmlsivcly pursuing
         the complelion o f e.\ it briefings of all Applicant.-;.




                                                            10

Appendix B
Managements Comments to the Draft Letter Report


                                                                                                                             3


         As shown in the ~harts below. exit briefings ~lrc 92 percent LXllllplctc for Ilurri1;ancs Katrina/Rita
         and 98 percell! complete for Hurricanes Gustav Ike as of Dcccmbcr 16. 201 J.



              ,_...
               '"



         The Governor' s Olliec of Homeland Security und EmcrgL'ncy Pn.:parl-dncss (GOHSEP) has
         dcvclo]>LxI a CIOSL"Out process 10 ensure Ih~'1 each Applicant and prujLx:t Ille<:i the eligibility
         TL"quircmCllls and documentation standards mandatL-d by Fl-dcml and State regulations. The
         process is Stalc-dri,'C!l wilh approval from the FEMA Regional olliee. FEMA and the 513\C
         mcct regularly to cnsurc continuing progress. As projects reach construction completion and
         obligated moncy is drawn down by the S1a(c \0 reimburse the Applicant for all eligible work. the
         Applicant may request that the Stale initiale project closeout. The following graph df.'scrim.'S the
         current status of project closeouts as of D..:ecmbcr 16. 2012,



                                          ........ ,."" K'
                                          •   . . . . , ... . "   ~ .. J
                                                                                      ...... . "'."" .    ,~~.

                                                                                        , .....".rl,. .. ' ....




                                                                                                                   lUll




                                                                                                                      f--
                      II""
          ,...
          j
                  -                                                                                                   h;m-

              ,- -        I-
                             ',IItJ
                                                                               ".                                     f- -

                      "
                             ,
                                      Ji...
                                      •                 ,,1M
                                                                           "   _.•  1.1'-'1       1.117
                                                                                               ....... ' .flO     1::- "

         FE \1A recently participated in a Globa! Issuc Summit with GO HSEP held In Louisiana on
         October 18-19. 2011 Thc summit focosed 00 ongoing efforts by FE\1A and the State regarding




                                                                                      11

Appendix B
Managements Comments to the Draft Letter Report


                                                                                                                   4


         outstanding closeout issues Following Ihe Summit, additional meetings were held the w(,'Ck of
         October 24, 2011 with the LRO, FE:-'IA Region and the Stale \0 dl'Vclop target dates for
         t'Omplcting oblig:l1ions and c1os<-'Ou\s of Louisiana projt:cts. At those meetings, Region VI and
         the PA staff orlhe LRO prcscn tt-d the current st3lUS of c!O~CQuIS and proje<:ls for Hurricant'S
         Gustav and Ike. It was d~.:cidcd that working groups will be cslablish..-d \0 develop a strategic
         plan for moving projccts 10 closeout. GOHSEr committt-d \0 making ciOSl"Out a priority and to
         providing additional resources 10 this elTort. GOIISE I' also commi tted to working with rEMA
         10 dctcnninc if FEMA might Ix: able to augment their slaff in the CIOSl'()UI effort. It is ClI p!-"Ctoo
         thatlhc strategic plan for procl'CCiing with the Gustav l Ike closeouts will be complc\ed by the
         end ofDecembcr 2011.

         While these m~1ings were focused on closeout activities for Gustav and Ike, FEMA continues to work
         with GO HSEI' to develop a closeout strategy for Katrina/Rita Category A and B proje<:ts. FEMA wi!!
         r.:main engaged in this process with the State of Louisi:lIla in order to close completed proj~'Cts and to
         expcclite the completion of open projects.

        We thank you. agam, fOf the opportunity to provide our comments to your recommendations
        contained in your draft report. Should you have further questions regarding our response. please
        do not hesitate to call FEMA's Chief Audit Liaison. Brad Sheth. at 202-646-1308.




                                                           12

Appendix C
Major Contributors to this Report
                    Kaye McTighe, Director
                    Nigel Gardner, Audit Manager
                    Christine Alvarez, Auditor-In-Charge
                    Nathaniel Nicholson, Auditor
                    Aaron Naas, Independent Referencer
                    John Woo, Independent Referencer




                                        13

Appendix E
Report Distribution
                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Chief of Staff
                      Associate Administrator, Response and Recovery
                      Deputy Associate Administrator, Response and Recovery
                      Assistant Administrator, Recovery
                      FEMA Audit Liaison (Project Number 10-013-EMO-FEMA)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress
                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                           14

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
